                             SENSITIVE BUT UNCLASSIFIED 


(U) OIG would appreciate a written response to this report from the Management Control
Steering Committee and information on actions taken or planned for the report’s three
recommendations. The response should indicate agreement or disagreement with each
recommendation. It is not necessary to provide detailed explanations of implementation efforts
at this time.

(U) Comments received within 14 calendar days of the date of this Management Alert will be
reprinted as an appendix to the attached report. In addition to the hard-copy response, please
provide an electronic copy of the final response to Norman P. Brown, Acting Assistant Inspector
General for Audits, at brownnp2@state.gov. The Management Alert and the final report may be
posted to the OIG Internet and Intranet Web sites.

(U) If you have any questions, please contact Mr. Brown or Jerry Rainwaters, Information
Technology Division Director, at rainwatersj@state.gov.

Attachment: As stated.

cc: 	 D(B) – William J. Burns
      C – Heather A. Higginbottom
      S – David Wade
      M – Patrick F. Kennedy

    A – Joyce A. Barr 

    BP – Barbara Retzlaff 

    CA – Janice Jacobs 

    CGFS – James Millette 

    CGFS/DCFO – Chris Flaggs 

    CGFS/DCFO/MC – Carole Clay 

    CGFS/DCFO/MC – Michelle Carter 

    DGHR – Hans Klemm, Acting 

    DS – Gregory B. Starr 

    EAP – Daniel Russel 

    ECA – Lee Satterfield, Acting

    INL – William R. Brownfield

    IRM – Steven C. Taylor 

    L – Richard Visek 

    OBO – Lydia Muniz 

    PM – Thomas Kelly, Acting 

    PRM – Anne Richard





                             SENSITIVE BUT UNCLASSIFIED 

                        


	

	                                   

                





                                            

                                                    

                                

                            

                                                    

                                                

                                                        

        

                                                        

                                        

            

    

                                                        

                    

	




    

    







